No. Case: 19-406

In the
SUPREME COURT OF THE UNITED STATES
MARILU TOUMA, Petitioner,
vs.
THE GENERAL COUNSEL OF THE REGENT AND
ET AL, Respondents,
On Petition for Certiorari to the United States
Court of Appeals for the Ninth Circuit, San Francisco, California
No. 18-55996
The Southern District Court, Santa Ana, California.
No. 8:17-cv-01132-VBF-KS
The Central District Court, Los Angeles, California.
No. 8:17-cv-01132-VBF-KS
APPLICATION FOR SUSPENSION OF ORDER
DENYING CERTIORARI
To the Honorable Elena Kagan, Associate Justice of the United States and
Circuit Justice for the Ninth Circuit:
Petitioner, respectfully make application pursuant to Rule 16.3 to suspend
the order denying her petition for a writ of certiorari in the above-entitled cause,
entered on December 9, 2019, pending the filing and final deposition of her petition
for rehearing. In support of this application, the petitioner states as follows:
In support of this application, I, petitioner states a's follows:
1. Supplement Brief (Vol. I) contains CRUCIAL information petitioner learned
after she filed her Writ of Certiorari on July 22, 2019. Such as:
Threats to release petitioner's intimate video, photos, etc.
Transcript of petitioner's Deposition taken by UCLA where UCLA
ACCUSED petitioner of being "UNCOPERATIVE;
NONCOMPLIANT; PHYSICALLY AGGRESSIVE" CRIMINAL
ACCUSATION that petitioner (ASSAULT A NURSE) among other
unfounded accusations and disgusted insinuations.

RECEIVED
JAN 1't2020
ggASPEFc1")Sar

2. For the last Eight years UCLA et al. have used their POWER, MONEY
AND INFLUENCE to destroy petitioner's reputation to justify for the
disgusting labels and false accusations UCLA et al. have made about
petitioner.
Petitioner has requested help from Local Police, District Court,
Attorney General, Department of Justice (Civil Rights Unit and
Disability Unit), FBI, etc. No action.
Petitioner is being follow; harass; spy on (computer/phone); among other
invasion of her privacy... all the time..by Police, security guards,
investigators, etc.
Supplement Brief (Vol. II) contains EXHIBITS that corroborates petitioner's
information in this application.
For the last Eight years; petitioner has been living with this STIGMA; that started
when UCLA et. al DELIBERATE FABRICATED FALSE ACCUSATIONS
about petitioner; to account for the DISCRIMINATORY TREATMENT /DENIAL
OF EMERGENCY SERVICES among other claims petitioner were subjected to
when she went to UCLA seeking medical treatment for her medical conditions.
Petitioner CATEGORICALLY AND FIRMILY DENIED any insults/accusations/
insinuations about her persona. Petitioner CHALLENGE any insults/accusations/
insinuation to be proven in the court of Law.
This request is made in good faith and with no intentions to delay any procedures
in this case. Petitioner do not expect any opposition from any of the Respondents;
since they have not responded nor waive their right to respond to petitioner's writ of
certiorari.
Wherefor, petitioner prays that this application be granted.
January 3, 2020
Sincerely,
Marilu F. Touma
Petitioner, Pro Se
4439 Murietta Avenue, #20
Sherman Oaks, Ca 91423
Mtoume2017@aol.com

CERTIFICATE OF COUNSEL
I hereby certify that this petition for rehearing is presented in
good faith and not for delay.

Mari
Pro Se

ouma

